Department of Homeland Security
   Ofﬁce of Inspector General

     Information Technology Management Letter for the 

        United States Coast Guard Component of the 

               FY 2009 DHS Integrated Audit 





OIG-10-77                                         April 2010
                                                            Office of Inspector General

                                                            U.S. Department of Homeland Security
                                                            Washington, DC 25028




                                       April 9, 2010

                                          Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, and special reports prepared as
part of our oversight responsibilities to promote economy, efficiency, and effectiveness within
the department.

This report presents the information technology (IT) management letter for the United States
Coast Guard component of the FY 2009 DHS Integrated audit as of September 30, 2009. It
contains observations and recommendations related to information technology internal control
that were not required to be reported in the Independent Auditors’ Report, dated November 13,
2009 and represents the separate restricted distribution report mentioned in that report. The
independent accounting firm KPMG LLP (KPMG) performed the audit of Coast Guard’s FY
2009 financial statements as part of the DHS Integrated Audit and prepared this IT management
letter. KPMG is responsible for the attached IT management letter dated January 21, 2010, and
the conclusions expressed in it. We do not express opinions on DHS’ financial statements or
internal control or conclusion on compliance with laws and regulations.

The recommendations herein have been developed to the best knowledge available to our office,
and have been discussed in draft with those responsible for implementation. We trust this report
will result in more effective, efficient, and economical operations. We express our appreciation
to all of those who contributed to the preparation of this report.




                                     Frank Deffer
                                     Assistant Inspector General for
                                     Information Technology Audits
                                 KPMG LLP
                                 2001 M Street, NW
                                 Washington, DC 20036




January 21, 2010

Inspector General
U.S. Department of Homeland Security
Chief Information Officer
U.S. Coast Guard
Chief Financial Officer
U.S. Coast Guard

Gentlemen:


We were engaged to audit the balance sheet of the U.S. Department of Homeland Security (DHS or
Department) as of September 30, 2009, and the related statement of custodial activity for the year then
ended (referred to herein as “financial statements”). We were also engaged to examine the Department’s
internal control over financial reporting (ICOFR) of the balance sheet as of September 30, 2009, and
statement of custodial activity for the year then ended. We were not engaged to audit the statements of
net cost, changes in net position, and budgetary resources, for the year ended September 30, 2009
(referred to herein as “other fiscal year [FY] 2009 financial statements”), or to examine ICOFR over the
other FY 2009 financial statements. Because of matters discussed in our Independent Auditors’ Report,
dated November 13, 2009, the scope of our work was not sufficient to enable us to express, and we did
not express, an opinion on the financial statements. In addition, we were unable to perform procedures
necessary to form an opinion on DHS’ ICOFR of the FY 2009 balance sheet and statement of custodial
activity.

In connection with our FY 2009 engagement, we examined the United States Coast Guard’s (Coast
Guard) internal control over financial reporting by obtaining an understanding of Coast Guard’s internal
control, determining whether internal controls had been placed in operation, assessing control risk, and
performing tests of controls. As noted above, the scope of our work was not sufficient to enable us to
express, and we did not express, an opinion on the effectiveness of ICOFR. Further, other matters
involving ICOFR may have been identified and reported had we been able to perform all procedures
necessary to express an opinion on the DHS balance sheet as of September 30, 2009, and the related
statement of custodial activity for the year then ended, and had we been engaged to audit the other FY
2009 financial statements.

A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent or detect and correct
misstatements on a timely basis. A significant deficiency is a deficiency, or a combination of
deficiencies, in internal control over financial reporting that is less severe than a material weakness, yet
important enough to merit attention by those charged with governance. A material weakness is a
deficiency, or a combination of deficiencies, in internal control over financial reporting, such that there
is a reasonable possibility that a material misstatement of the entity’s financial statements will not be
prevented, or detected and corrected on a timely basis.




                                    KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                    member firm of KPMG International, a Swiss cooperative.
During our audit engagement, we noted certain matters in the areas of configuration management with
respect to Coast Guard’s financial systems information technology (IT) general controls which we believe
contribute to a DHS-level significant deficiency that is considered a material weakness in IT controls and
financial system functionality. These matters are described in the IT General Control and Financial
System Functionality Findings by Audit Area section of this letter.
The material weakness described above is presented in our Independent Auditors’ Report dated
November 13, 2009. This letter represents the separate restricted distribution report mentioned in that
report.
Although not considered to be a material weakness, we also noted certain other items during our audit
engagement which we would like to bring to your attention. These matters are also described in the IT
General Control and Financial System Functionality Findings by Audit Area section of this letter.
The material weakness and other comments described herein have been discussed with the appropriate
members of management, or communicated through a Notice of Finding and Recommendation (NFR).
We aim to use our knowledge of DHS’ organization gained during our audit engagement to make
comments and suggestions that we hope will be useful to you. We have not considered internal control
since the date of our Independent Auditors’ Report.
The Table of Contents on the next page identifies each section of the letter. In addition, we have provided
the following: a description of key Coast Guard financial systems and IT infrastructure within the scope
of the FY 2009 DHS financial statement audit engagement in Appendix A; a description of each internal
control deficiency in Appendix B; the current status of the prior year Notice of Finding and
Recommendations (NFR) in Appendix C; and Coast Guard management’s written response in Appendix
D. Our comments related to financial management and reporting internal controls have been presented in
a separate letter to the Office of Inspector General and the DHS Acting Chief Financial Officer dated
December 9, 2009.

This report is intended solely for the information and use of DHS management, DHS Office of Inspector
General, the Office of Management and Budget, U.S. Government Accountability Office, and the U.S.
Congress, and is not intended to be and should not be used by anyone other than these specified parties.

Very truly yours,
                               Department of Homeland Security

                                  United States Coast Guard 

                           Information Technology Management Letter
                                      September 30, 2009

            INFORMATION TECHNOLOGY MANAGEMENT LETTER 

                                     TABLE OF CONTENTS 

                                                                                                  Page

Objective, Scope and Approach                                                                      1


Summary of Findings and Recommendations                                                            2


IT General Control and Financial System Functionality Findings by Audit Area                       3


 Findings Contributing to a Material Weakness in IT at the Departmental Level                      3


   Related to IT Financial Systems Controls                                                        3


      Configuration Management                                                                     3


   Related to Financial System Functionality                                                       4


   Other Findings in IT General Control                                                            5


      Access Controls                                                                              5


      Security Management                                                                          5


   After-Hours Physical Security Testing                                                           6


   Social Engineering Testing                                                                      7


Application Controls                                                                               9


Management’s Comments and OIG Response                                                             9


                                           APPENDICES 


   Appendix                                           Subject                                     Page

                       Description of Key Coast Guard Financial Systems and IT Infrastructure 

        A              within the Scope of the FY 2009 DHS Financial Statement Audit               10

                       Engagement 


        B              FY 2009 Notices of IT Findings and Recommendations at Coast Guard           12


                           -   Notice of Findings and Recommendations – Definition of 

                               Severity Ratings
                                                                                                  13

                       Status of Prior Year Notices of Findings and Recommendations and 

        C              Comparison to Current Year Notices of Findings and Recommendations          24

                       at Coast Guard

            Department of Homeland Security
               United States Coast Guard
        Information Technology Management Letter
                   September 30, 2009

D   Management’s Comments                          30

E   Report Distribution                            32
                                 Department of Homeland Security
 

                                    United States Coast Guard 

                             Information Technology Management Letter
                                        September 30, 2009


                        OBJECTIVE, SCOPE AND APPROACH

During our engagement to perform an integrated audit of Department of Homeland Security (DHS), we
evaluated the effectiveness of the IT General Controls of DHS’ financial processing environment and
related IT infrastructure as necessary to support the engagement. The Federal Information System
Controls Audit Manual (FISCAM), issued by the Government Accountability Office (GAO), formed the
basis of our audit as it relates to IT general control assessment at Coast Guard. The scope of the Coast
Guard IT general controls assessment is described in Appendix A.

FISCAM was designed to inform financial auditors about IT controls and related audit concerns to assist
them in planning their audit work and to integrate the work of auditors with other aspects of the financial
statement audit. FISCAM also provides guidance to IT auditors when considering the scope and extent of
review that generally should be performed when evaluating general controls and the IT environment of a
federal agency. FISCAM defines the following six control functions to be essential to the effective
operation of the general IT controls environment.

�	 Security Management (SM) – Controls that provide a framework and continuing cycle of activity for
   managing risk, developing security policies, assigning responsibilities, and monitoring the adequacy
   of computer-related security controls.
�	 Access control (AC) – Controls that limit and/or monitor access to computer resources (data,
   programs, equipment, and facilities) to protect against unauthorized modification, loss, and disclosure.
�	 Configuration Management (CM) – Controls that help to prevent the implementation of unauthorized
   programs or modifications to existing programs.
�	 Segregation of duties (SD) – Controls that constitute policies, procedures, and an organizational
   structure to prevent one individual from controlling key aspects of computer-related operations, thus
   deterring unauthorized actions or access to assets or records.
�	 Contingency Planning (CP) – Controls that involve procedures for continuing critical operations
   without interruption, or with prompt resumption, when unexpected events occur.

To complement our general IT controls audit, we also performed technical security testing for key
network and system devices. The technical security testing was performed from within a select Coast
Guard facility, and focused on test, development, and production devices that directly support Coast
Guard’s financial processing and key general support systems.

Application controls were not tested for the year ending September 30, 2009 due to the nature of prior-
year audit findings.




                                                     1

    Information Technology Management Letter for the United States Coast Guard Component
                            of the FY 2009 DHS Integrated Audit
                                 Department of Homeland Security
 

                                    United States Coast Guard 

                             Information Technology Management Letter
                                        September 30, 2009

             SUMMARY OF FINDINGS AND RECOMMENDATIONS
During fiscal year (FY) 2009, Coast Guard took corrective action to address nearly half of the prior year
IT control weaknesses. For example, Coast Guard made improvements by updating the Coast Guard
Finance Center (FINCEN) Continuity of Operations (COOP) Plan, strengthening account management
controls over the Shore Asset Management (SAM) system, and completed the Certification and
Accreditation (C&A) package for their core financial systems. However, during FY 2009, we continued
to identify IT general control weaknesses at Coast Guard. The most significant weaknesses from a
financial statement audit perspective are related to the controls over authorization, development,
implementation, and tracking of IT scripts at FINCEN. These IT control deficiencies limited Coast
Guard’s ability to ensure that critical financial and operational data were maintained in such a manner to
ensure confidentiality, integrity, and availability. In addition, these deficiencies negatively impacted the
internal controls over Coast Guard financial reporting and its operation and we consider them to
contribute to a material weakness at the Department level under standards established by the American
Institute of Certified Public Accountants (AICPA). In addition, based upon the results of our test work
we noted that the Coast Guard did not fully comply with the Departments requirements of Federal
Financial Management Improvement Act (FFMIA).
Of the 20 findings identified during our FY 2009 testing, 11 were repeat findings, either partially or in
whole from the prior year, and 9 were new IT findings. These findings represent deficiencies in three of
the five FISCAM key control areas. The FISCAM areas impacted included Security Management,
Access Control, and Configuration Management. We also considered the effects of financial systems
functionality when testing internal controls since key Coast Guard financial systems are not compliant
with FFMIA and are no longer supported by the original software provider. Financial system
functionality limitations add to the challenge of addressing systemic internal control weaknesses, and
strengthening the control environment at the Coast Guard.
The majority of the findings indicate a lack of properly designed, detailed, and consistent guidance over
financial system controls to enforce DHS Sensitive System Policy Directive 4300A requirements and
National Institute of Standards and Technology (NIST) guidance. Specifically, the findings stem from 1)
inadequately designed and operating IT script change control policies and procedures, 2) unverified
access controls through the lack of user access privilege re-certifications, 3) entity-wide security program
issues involving civilian and contractor background investigation weaknesses, 4) inadequately designed
and operating audit log review policies and procedures, 5) physical security and security awareness, and
6) role-based training for individuals with elevated responsibilities. These deficiencies may increase the
risk that the confidentiality, integrity, and availability of system controls and Coast Guard financial data
could be exploited thereby compromising the integrity of financial data used by management and reported
in the DHS consolidated financial statements.
While the recommendations made by us should be considered by Coast Guard, it is the ultimate
responsibility of Coast Guard management to determine the most appropriate method(s) for addressing
the weaknesses identified based on their system capabilities and available resources.




                                                      2

    Information Technology Management Letter for the United States Coast Guard Component
                            of the FY 2009 DHS Integrated Audit
                                  Department of Homeland Security
 

                                     United States Coast Guard 

                              Information Technology Management Letter
                                         September 30, 2009


              IT GENERAL CONTROLS AND FINANCIAL SYSTEM 

                 FUNCTIONALITY FINDINGS BY AUDIT AREA 

Findings Contributing to a Material Weakness in IT at the Department Level

Conditions: In FY 2009, the following IT general control and financial system functionality deficiencies
were identified at the Coast Guard and contribute to a DHS-level significant deficiency that is considered
a material weakness in IT general and application controls. Our findings are divided into two groupings:
1) financial systems controls and 2) IT system functionality.
Related to IT Financial Systems Controls
Configuration Management – we noted:
Coast Guard’s core financial system configuration management process controls are not operating
effectively, and continue to present risks to DHS financial data confidentiality, integrity, and availability.
Financial data in the general ledger may be compromised by automated and manual changes that are not
adequately controlled. For example, the Coast Guard uses an IT scripting process to make updates to its
core general ledger software as necessary to process financial data. However, the Coast Guard has not
fully developed testing standards to guide staff in the development and functional testing of IT scripts,
documented policies and procedures over testing plans that must be performed, and improve processes to
ensure that all necessary approvals are obtained prior to implementation. Specifically, we noted the
following weaknesses associated with the IT script control process:
    �	 Coast Guard lacks a formal process to distinguish between the module lead approvers for script
       approval requests.
    �	 FINCEN analysts may run scripts without seeking approval from the Functional Supervisors for
       approved recurring scripts.
    �	 Testing requirements are inconsistently followed for the testing of the recurring approval scripts
       and retaining evidence of testing.
    �	 Reconciliation between the scripts run and the changes made to the database tables is not being
       performed to monitor the script activities using this report as it is too difficult to accurately and
       effectively reconcile the scripts to the audit log table changes.
    �	 The Script Tracking System does not consistently include all testing, approval, and 

       implementation documentation for all scripts. 

    �	 Variations in the way the PRP Approval Forms are populated and completed exist for fields such
       as financial impact, test strategy and baseline determinations.
    �	 Proper approval is not consistently obtained and documented prior to the running of each script.




                                                       3

    Information Technology Management Letter for the United States Coast Guard Component
                            of the FY 2009 DHS Integrated Audit
                                 Department of Homeland Security
 

                                    United States Coast Guard 

                             Information Technology Management Letter
                                        September 30, 2009


Related to Financial System Functionality:
We noted that financial system functionality limitations are contributing to control deficiencies and
inhibiting progress on corrective actions for Coast Guard. These functionality limitations are preventing
the Coast Guard from improving the efficiency and reliability of its financial reporting processes. Some of
the financial system limitations lead to extensive manual and redundant procedures to process
transactions, verify accuracy of data, and to prepare financial statements. Systemic conditions related to
financial system functionality include:
1.	 As noted above, Coast Guard’s core financial system configuration management process is not
    operating effectively due to inadequate controls over IT scripts. The IT script process was instituted
    as a solution primarily to compensate for system functionality and data quality issues;
2.	 Annual financial system account recertifications are not being performed due to limitations in the
    systems;
3.	 Financial system audit logs are not readily generated and reviewed as some of the financial systems
    are lacking this capability;
4.	 Aspects of DHS-required system password requirements are not implemented because some financial
    systems cannot support the policy;
5.	 Production versions of operational financial systems are outdated, no longer supported by the vendor,
    and do not provide the necessary core functional capabilities (e.g., general ledger capabilities);
6.	 Financial systems functionality limitations are preventing the Coast Guard from establishing
    automated processes and application controls that would improve accuracy, reliability and facilitate
    efficient processing of certain financial data such as:
   �	 Tracking of costs to support weighted average pricing for operating materials and supplies;
   �	 Maintaining data needed to support the calculation of accounting payable and provide detailed
      listings of accounts payable, which may reduce the resources spent by Coast Guard personnel in
      manually preparing the accounts payable accrual;
   �	 Ensuring proper segregation of duties such as automating the procurement process to ensure that
      only individuals who have proper contract authority can approve transactions;
   �	 Tracking detail transactions associated with intragovernmental business and eliminating the need
      for default codes such as Trading Partner Identification Number that cannot be easily researched;
      and
   �	 Ensuring that undelivered obligations are properly accounted for upon receipt of goods or 

      services.

Recommendations: Coast Guard should continue to make improvements to implement and better
document an integrated script configuration management process that includes enforced responsibilities
of all participants in the process, and the continued development of documentation requirements. In
addition, Coast Guard should address the IT system aspects associated with the financial system



                                                     4

    Information Technology Management Letter for the United States Coast Guard Component
                            of the FY 2009 DHS Integrated Audit
                                 Department of Homeland Security
 

                                    United States Coast Guard 

                             Information Technology Management Letter
                                        September 30, 2009

functionality issues listed in No. 1 through No. 6 above, or develop compensating/mitigating controls in
order to eliminate or reduce the associated risk.

Specifically, for the IT script control process, we recommend that the Coast Guard should:

    �	 Continue to design, document, implement, and enforce the effectiveness of internal controls
       associated with the active (current and future) scripts;

    With respect to procedures already in place, Coast Guard should:

    �	 Update / develop procedures and implement technical controls in the Core Accounting System
       (CAS) and Financial Procurement Desktop (FPD) databases to ensure that the appropriate
       monitoring and review of script activities is performed and documented;

    �	 Continue to update script policies and procedures to include clear requirements and more detailed
       guidance over requesting recurring scripts, testing and documentation requirements,
       monitoring/audit log reviews, and blanket approval requirements. Additionally, ensure that the
       policies and procedures include detailed guidance over the requirements for the testing of scripts
       and associated test plans to ensure that the appropriate financial impact of the script is evaluated,
       reviewed by the appropriate personnel, tested in an appropriate test environment prior to being
       put into production, and documented prior to execution; and,

    �	 Further develop and implement policies and procedures governing the script change control
       process to ensure that all script records are accurate and complete.

Other Findings in IT General Controls
Although not contributing to a department-level material weakness, we also noted the following other
matters related to financial system IT control deficiencies during the FY09 DHS IT Audit:
1.	 Access Controls – we noted:
    �	 Procedures surrounding the use of monitoring reports over contracted personnel data have not
       been formally documented.
    �	 Procedures over the process of finalizing and implementing entity-wide processes for account
       terminations and related notifications are still in draft and have not been implemented or
       communicated.
    �	 Audit log reviews for key financial systems are not conducted at a sufficient frequency.
    �	 Access review procedures for key financial applications do not include the review of all user
       accounts to ensure that all terminated individuals no longer have active accounts, that inactive
       accounts are locked, and that privileges associated with each individual are still authorized and
       necessary.
2.	 Security Management – we noted:


                                                     5

    Information Technology Management Letter for the United States Coast Guard Component
                            of the FY 2009 DHS Integrated Audit
                                 Department of Homeland Security
 

                                    United States Coast Guard 

                             Information Technology Management Letter
                                        September 30, 2009

    �	 Background investigations for all civilian employees have not been completed and Coast Guard’s
       civilian position sensitivity designation process is not in compliance with DHS guidance.
    �	 Coast Guard procedures do not include specific guidance for the program managers on how to set
       the correct and consistent risk levels and position sensitivity designations for contract employees.
    �	 During our after-hours physical security and social engineering testing we identified exceptions in
       the protection of sensitive user account information. The table below details the exceptions
       identified at the various locations tested.

After-Hours Physical Security Testing

We performed after-hours physical security testing to identify risks related to non-technical aspects of IT
security. These non-technical IT security aspects include physical access to media and equipment that
houses financial data and information residing on a Coast Guard employee’s / contractor’s desk, which
could be used by others to gain unauthorized access to systems housing financial information. The testing
was performed at various Coast Guard locations that process and / or maintain financial data.

                  Security Weaknesses Observed During After Hours Physical Security Testing
                                              Coast Guard Locations Tested
                              Coast Guard Coast Guard Coast Guard             Coast Guard
                               HQ – Jemal     HQ – Jemal        HQ –         Finance Center       Total
                                 (CG-6)       (DCMS-8x)      Transpoint         (FINCEN)        Exceptions
      Exceptions Noted                                         (CG-8)                            by Type
Passwords                           2              2              1                 6               11
For Official Use Only
(FOUO) Documents
Keys/Badges
Personally Identifiable
Information (PII)
Server Names/IP Addresses
Unsecured Laptops                                  2                                                 2
Unsecured External Drives
Credit Cards                                       2                                                 2
Common Access Cards                 1                                               3                4
(CAC)
Common Access Card PIN
Classified Documents
Other –US Government
official passport
Total Exceptions by                 3              6              1                 9               19
Location
Source: Coast Guard management, OIG and KPMG direct observation and inspection of work areas.


Note that approximately 20-25 desks / offices were examined for each one of the columns in the above
table.


                                                     6

    Information Technology Management Letter for the United States Coast Guard Component
                            of the FY 2009 DHS Integrated Audit
                                 Department of Homeland Security
 

                                    United States Coast Guard 

                             Information Technology Management Letter
                                        September 30, 2009


Social Engineering Testing

Social engineering is defined as the act of attempting to manipulate or deceive individuals into taking
action that is inconsistent with DHS policies, such as divulging sensitive information or allowing /
enabling computer system access. The term typically applies to deception for the purpose of information
gathering, or gaining computer system access, as shown in the following table.


Location                 Total           Total              Number of people who provided a
                         Called          Answered           password
Coast Guard HQ           20              8                  0 Passwords
Coast Guard              18              6                  1 Password
FINCEN*

* Although the password was provided, shortly after the violation, the user became aware of his / her
infraction, and changed his / her password. Additionally, the user then notified the FINCEN Information
Assurance Support (IAS) group of the social engineering activity. Our full sample of 30 personnel could
not be completed due to the intervention from the Coast Guard FINCEN Information Assurance Support
(IAS) group.
Recommendations: We recommend that the Coast Guard Chief Information Officer and Chief Financial
Officer, in coordination with the DHS Office of Chief Financial Officer and the DHS Office of the Chief
Information Officer, make the following improvements to Coast Guard’s financial management systems
and associated information technology security program.
For access controls:
    �	 Develop procedures for the periodic review of the manual audit logs. In addition, ensure audit
       log files are configured, retained, and archived in compliance with DHS policy;
    �	 Develop and finalize specific procedures over the review of the CVS reports and reconciliation of
       contractor accounts to ensure that contractor data within the system remains current and accurate;
    �	 Develop and document an enterprise-wide process that will notify all impacted system owners of
       terminated, transferred, or retired contractor, military, and civilian personnel;
    �	 Review audit logs containing unusual activity and unexplained access attempts on at least a
       monthly basis;
    �	 Modify procedures to require an annual review of one hundred percent (100%) of user accounts
       for the key financial systems and their associated privileges that are greater than read-only to
       ensure access is still required.
For security management:
    �	 Update the policies and procedures currently in place to include clear guidance for Program
       Managers and Contracting Officers to assign contractor risk level(s) and position sensitivity
       designation requirements in order to verify that all contracts issued by the Coast Guard include
       the appropriate investigation level requirements;

                                                    7

    Information Technology Management Letter for the United States Coast Guard Component
                            of the FY 2009 DHS Integrated Audit
                                 Department of Homeland Security
 

                                    United States Coast Guard 

                             Information Technology Management Letter
                                        September 30, 2009

    �	 Perform initial background investigations and re-investigations for civilian employees in 

       accordance with DHS directives; 

    �	 Review its policies and procedures regarding Protection of Sensitive Information and update
       where required in order to address DHS and other Federal requirements, with emphasis being
       placed on the potential impacts of not consistently and adequately protecting this sensitive
       information;
    �	 Review, and update as required, its security awareness / training content to address the updated
       Protection of Sensitive Information policies and procedures; and
    �	 Validate the effectiveness of the updated policies and procedures and associated training through
       mechanisms such as scheduled and unscheduled desk / floor reviews, awareness training testing,
       etc. and take appropriate corrective action to address any issues identified during this validation.

Cause/Effect: The IT system development activities did not incorporate adequate security controls
during the initial implementation more than six years ago. The current IT configurations of many Coast
Guard financial systems cannot be easily reconfigured to meet new DHS security requirements. The
existence of these IT weaknesses leads to added dependency on the other mitigating manual controls to
be operating effectively at all times. Because mitigating controls often require more human
involvement, there is an increased risk that human error could materially affect the financial statements.
In addition, the Coast Guard’s core financial systems are not FFMIA compliant with the Federal
Government’s Financial System Integration Office (FSIO) requirements.
Reasonable assurance should be provided that financial system user access levels are limited and
monitored for appropriateness and that all user accounts belong to current employees. The weaknesses
identified within Coast Guard’s access controls increase the risk that employees and contractors may have
access to a system that is outside the realm of their job responsibilities or that a separated individual, or
another person with knowledge of an active account of a terminated employee, could use the account to
alter the data contained within the application or database. This may also increase the risk that the
confidentiality, integrity, and availability of system controls and the financial data could be exploited
thereby compromising the integrity of financial data used by management and reported in the DHS
financial statements.
Furthermore, the lack of documented security configuration management controls may result in security
responsibilities communicated to system developers improperly as well as the improper implementation
and monitoring of system changes. This also increases the risk of unsubstantiated changes as well as
changes that may introduce errors or data integrity issues that are not easily traceable back to the changes.
In addition, it increases the risk of undocumented and unauthorized changes to critical or sensitive
information and systems. This may reduce the reliability of information produced by these systems.
Criteria: The Federal Information Security Management Act (FISMA) passed as part of the Electronic
Government Act of 2002, mandates that Federal entities maintain IT security programs in accordance with
OMB and NIST guidance. OMB Circular No. A-130, Management of Federal Information Resources,
and various NIST guidelines describe specific essential criteria for maintaining effective general IT
controls. In addition, OMB Circular No. A-127 prescribes policies and standards for executive
departments and agencies to follow in developing, operating, evaluating, and reporting on financial
management systems. FFMIA sets forth legislation prescribing policies and standards for executive
departments and agencies to follow in developing, operating, evaluating, and reporting on financial

                                                      8

    Information Technology Management Letter for the United States Coast Guard Component
                            of the FY 2009 DHS Integrated Audit
                                 Department of Homeland Security
 

                                    United States Coast Guard 

                             Information Technology Management Letter
                                        September 30, 2009

management systems. The purpose of FFMIA is: (1) to provide for consistency of accounting by an
agency from one fiscal year to the next, and uniform accounting standards throughout the Federal
Government; (2) require Federal financial management systems to support full disclosure of Federal
financial data, including the full costs of Federal programs and activities; (3) increase the accountability
and credibility of federal financial management; (4) improve performance, productivity and efficiency of
Federal Government financial management; and (5) establish financial management systems to support
controlling the cost of Federal Government. In closing, for this year’s IT audit we assessed the DHS
component’s compliance with DHS Sensitive System Policy Directive 4300A.



                                 APPLICATION CONTROLS


Application controls were not tested for the year ending September 30, 2009 due to the nature of the
prior-year audit findings.



               MANAGEMENT COMMENTS AND OIG RESPONSE

We obtained written comments on a draft of this report from the Coast Guard CIO. Generally, the Coast
Guard agreed with all of our findings and recommendations. The Coast Guard has developed a
remediation plan to address these findings and recommendations. We have included a copy of the
comments in Appendix D.

OIG Response
We agree with the steps that Coast Guard management is taking to satisfy these recommendations.




                                                      9

    Information Technology Management Letter for the United States Coast Guard Component
                            of the FY 2009 DHS Integrated Audit
                                                                              Appendix A

                         Department of Homeland Security
 

                            United States Coast Guard
 

                     Information Technology Management Letter
                                September 30, 2009




                                  Appendix A 


  Description of Key Coast Guard Financial Systems and IT 

Infrastructure within the Scope of the FY 2009 DHS Financial 

                Statement Audit Engagement 





                                         10

Information Technology Management Letter for the United States Coast Guard Component
                        of the FY 2009 DHS Integrated Audit
                                                                                             Appendix A

                               Department of Homeland Security
 

                                  United States Coast Guard
 

                           Information Technology Management Letter
                                      September 30, 2009


Below is a description of significant Coast Guard financial management systems and supporting Information
Technology (IT) infrastructure included in the scope of the engagement to perform the financial statement
audit.

Locations of Audit: Coast Guard Headquarters in Washington, DC; the Coast Guard Finance Center
(FINCEN) in Chesapeake, Virginia; the Operations Supply Center (OSC) in Martinsburg, West Virginia;
and the Pay and Personnel Center (PPC) in Topeka, Kansas.


Key Systems Subject to Audit:
�	 Core Accounting System (CAS): Core accounting system that is the principal general ledger for
   recording financial transactions for the Coast Guard. CAS is hosted at FINCEN, the Coast Guard’s
   primary data center. It is a customized version of Oracle Financials.
�	 Financial Procurement Desktop (FPD): Used to create and post obligations to the core accounting
   system. It allows users to enter funding, create purchase requests, issue procurement documents,
   perform system administration responsibilities, and reconcile weekly program element status reports.
   FPD is interconnected with the CAS system and is hosted at FINCEN.
�	 Workflow Imaging Network System (WINS): Document image processing system, which is integrated
   with an Oracle Developer/2000 relational database. WINS allows electronic data and scanned paper
   documents to be imaged and processed for data verification, reconciliation and payment. WINS utilizes
   MarkView software to scan documents and to view the images of scanned documents and to render
   images of electronic data received. This system is hosted at FINCEN.
�	 Checkfree: A commercial product used to reconcile payment information retrieved from the United
   States Department of the Treasury. It reconciles transaction items that Treasury has processed to
   transaction items Coast Guard has sent to Treasury. This system is hosted at FINCEN.
�	 Joint Uniformed Military Pay System (JUMPS): Mainframe application, hosted at PSC, used for paying
   Coast Guard active and reserve personnel payroll.
�	 Shore Asset Management (SAM): Is hosted at the Coast Guard’s Operation System Center (OSC), in
   Martinsburg, WV. SAM provides core information about the Coast Guard shore facility assets and
   facility engineering. The application tracks activities and assist in the management of the Civil
   Engineering (CE) Program and the Facility Engineering (FE) Program.




                                                  11

   Information Technology Management Letter for the United States Coast Guard Component
                           of the FY 2009 DHS Integrated Audit
                                                                                 Appendix B

                            Department of Homeland Security
 

                               United States Coast Guard
 

                        Information Technology Management Letter
                                   September 30, 2009




                                     Appendix B 


FY 2009 Notices of IT Findings and Recommendations at Coast Guard
 





                                            12

   Information Technology Management Letter for the United States Coast Guard Component
                           of the FY 2009 DHS Integrated Audit
                                                                                                    Appendix B

                                    Department of Homeland Security

                                       United States Coast Guard

                                Information Technology Management Letter
                                           September 30, 2009


Notice of Findings and Recommendations – Definition of Severity Ratings**:

Each NFR listed in Appendix B is assigned a severity rating from 1 to 3 indicating the influence on the DHS
Consolidated Independent Auditors Report.

      1 – Not substantial

      2 – Less significant 

      3 – More significant 


The severity ratings indicate the degree to which the deficiency influenced the determination of severity for
consolidated reporting purposes.

These rating are provided only to assist the Coast Guard in the development of its corrective action plans for
remediation of the deficiency.




                                                        13

       Information Technology Management Letter for the United States Coast Guard Component
                               of the FY 2009 DHS Integrated Audit
                                                                                                                                       Appendix B

                                                 Department of Homeland Security
 

                                                    United States Coast Guard
 

                                             Information Technology Management Letter
                                                        September 30, 2009

                                              Department of Homeland Security
 

                                                  United States Coast Guard 

                                               FY2009 Information Technology 

                                   Notification of Findings and Recommendations – Detail 


                                                                                                                               New     Repeat   Severity
NFR #                            Condition                                              Recommendation
                                                                                                                               Issue    Issue    Rating
CG-IT­   The current Coast Guard procedures do not include specific     Update the policies and procedures currently in                   X        2
09-10    guidance for the Program Managers on how to set the            place to include clear guidance for Program
         correct and consistent risk levels and position sensitivity    Managers and Contracting Officers to assign
         designations that correspond to CLINs and labor categories.    contractor risk level(s) and position sensitivity
         Therefore, there is insufficient guidance over the level of    designation requirements in order to verify that all
         clearance required which may result in inconsistent risk       contracts issued by the Coast Guard include the
         levels and position sensitivity designations.                  appropriate investigation level requirements.
CG-IT­   The Role-Based Industry Standards for Coast Guard              � Update the Role-Based Industry Standards for                   X          1
09-14    Information Assurance (IA) Professionals Commandant                Coast Guard IA Professionals Commandant
         Instruction remains in draft form.                                 Instruction to include the procedures by which
                                                                            Direct Access will be used to monitor and
                                                                            verify that training has been completed by all
                                                                            Coast Guard Government personnel with
                                                                            significant information security
                                                                            responsibilities. In addition, the instruction
                                                                            should include the procedures by which Coast
                                                                            Guard contractor compliance will be
                                                                            monitored and verified.
                                                                        �   Finalize, communicate, and implement the
                                                                            Role-Based Industry Standards for Coast
                                                                            Guard IA Professionals Commandant
                                                                            Instruction.
                                                                        �   Continue with efforts to implement Direct
                                                                            Access as the centralized method for


                                                                       14

                 Information Technology Management Letter for the United States Coast Guard Component
                                         of the FY 2009 DHS Integrated Audit
                                                                                                                                         Appendix B

                                                  Department of Homeland Security
 

                                                     United States Coast Guard
 

                                              Information Technology Management Letter
                                                         September 30, 2009

                                                                                                                                 New     Repeat   Severity
NFR #                             Condition                                              Recommendation
                                                                                                                                 Issue    Issue    Rating
                                                                             monitoring and verifying Coast Guard
                                                                             personnel compliance with the specialized
                                                                             role-based training requirements.

CG-IT­   Although the Operation Systems Center (OSC) has begun           Develop and document comprehensive policies                       X          1
09-23    reviewing Shore Asset Management (SAM) audit logs on a          and procedures over the SAM audit log review
         regular basis, detailed policies and procedures have not        process. These policies and procedures should
         been created over the process and sufficient evidence is not    establish the independence of the reviewer, the
         maintained.                                                     audit logs under review, and the supporting
                                                                         documentation requirements including results and
                                                                         remediation efforts.
CG-IT­   Procedures do not include an annual review of all               Modify procedures to require an annual review of                  X          1
09-25    Workflow Imaging Network System (WINS) user accounts,           one hundred percent (100%) of WINS user
         as required by the DHS 4300A Sensitive Systems                  accounts and their associated privileges that are
         Handbook and required by the DHS Chief Information              greater than read-only. The updated procedures
         Officer.                                                        should include steps to verify that: a) all
                                                                         terminated individuals no longer have active
                                                                         accounts, b) inactive accounts are locked, and c)
                                                                         privileges associated with each individual/role are
                                                                         still authorized and necessary for that job function.
CG-IT­   Weaknesses continued to exist over the script configuration     Continue making improvements to implement and                     X          3
09-31    management process. Specifically, weaknesses were noted         better document an integrated script configuration
         in the areas of approvals, testing, monitoring, maintaining     management process that includes enforced
         documentation, and audit logging.                               responsibilities of all participants in the process,
                                                                         and the continued development of documentation
             �    Coast Guard lacks a formal process to distinguish      requirements. We recommend that the Coast
                  between the module lead approvers for script           Guard should:
                  approval requests.
             �    Coast Guard Finance Center (FINCEN) analysts           �   Continue to design, document, implement, and
                  may run scripts without seeking approval from the          enforce the effectiveness of internal controls
                  Functional Supervisors for approved recurring              associated with the active (current and future)

                                                                        15

                 Information Technology Management Letter for the United States Coast Guard Component
                                         of the FY 2009 DHS Integrated Audit
                                                                                                                                 Appendix B

                                            Department of Homeland Security
 

                                               United States Coast Guard
 

                                        Information Technology Management Letter
                                                   September 30, 2009

                                                                                                                         New     Repeat   Severity
NFR #                       Condition                                               Recommendation
                                                                                                                         Issue    Issue    Rating
            scripts.                                                    scripts.
        �   Testing requirements are inconsistently followed        With respect to procedures already in place, Coast
            for the testing of the Recurring Approval scripts       Guard should:
            and retaining evidence of testing.
        �   No reconciliation between the scripts run and the       �   Update / Develop procedures and implement
            changes made to the database tables is being                technical controls in the Core Accounting
            performed to monitor the script activities using            System (CAS) and Financial Procurement
            this report as it is too difficult to accurately and        Desktop (FPD) databases to ensure that the
            effectively reconcile the scripts to the audit log          appropriate monitoring and review of script
            table changes.                                              activities is performed and documented.
        �   The Script Tracking System does not consistently
                                                                    �   Continue to update script policies and
            include all testing, approval, and implementation
                                                                        procedures to include clear requirements and
            documentation for all scripts.
                                                                        more detailed guidance over requesting
        �   Variations in the way the Production Review                 recurring scripts, testing and documentation
            Process (PRP) Approval Forms are populated and              requirements, monitoring/audit log reviews,
            completed exist for fields such as financial impact,        and blanket approval requirements.
            test strategy and baseline determinations.                  Additionally, ensure that the policies and
                                                                        procedures include detailed guidance over the
        �   Proper approval is not consistently obtained and            requirements for the testing of scripts and
            documented prior to the running of each script.             associated test plans to ensure that the
                                                                        appropriate financial impact of the script is
                                                                        evaluated, reviewed by the appropriate
                                                                        personnel, tested in an appropriate test
                                                                        environment prior to being put into
                                                                        production, and documented prior to
                                                                        execution.

                                                                    �   Further develop and implement policies and


                                                                   16

            Information Technology Management Letter for the United States Coast Guard Component
                                    of the FY 2009 DHS Integrated Audit
                                                                                                                                           Appendix B

                                                   Department of Homeland Security
 

                                                      United States Coast Guard
 

                                               Information Technology Management Letter
                                                          September 30, 2009

                                                                                                                                   New     Repeat   Severity
NFR #                              Condition                                                Recommendation
                                                                                                                                   Issue    Issue    Rating
                                                                                procedures governing the script change control
                                                                                process to ensure that all script records within
                                                                                the Change Management Script System are
                                                                                accurate and complete.

CG-IT­   Coast Guard has not created specific procedures to address         Develop and finalize specific procedures over the                X          2
09-32    how monthly contractor reports will be analyzed and does           review of the Contractor Verification System
         not maintain supporting evidence associated with this              reports and reconciliation of contractor accounts to
         review.                                                            ensure that contractor data within the system
                                                                            remains current and accurate.
CG-IT­   During our FY 2009 follow-up test work, we determined              � Develop and document an enterprise-wide                        X          2
09-33    that Coast Guard is currently finalizing the business process          process that will notify all impacted system
         that will be used to remediate the conditions identified in            owners of terminated, transferred, or retired
         the prior year NFR. Once a business process has been                   contractor, military, and civilian personnel;
         finalized, a technical implementation will occur. Currently,           and
         Coast Guard HQ plans to use the Direct Access Human
                                                                            �   Develop and finalize entity management
         Resources (HR) system to notify system owners of HR
                                                                                policies and procedures for verifying that
         status changes for all individuals within the system. This
                                                                                terminated user accounts have been
         would include terminations. Direct Access is currently
                                                                                successfully removed.
         undergoing a phased upgrade from PeopleSoft 8.0 to
         PeopleSoft 9.0. Coast Guard informed us that while the
         functionality required is not included in the 8.0 version, it
         should be included in the 9.0 version. At this time, where
         this functionality fits into that upgrade schedule, has not yet
         been determined.

         In addition, Coast Guard has created a service request to
         track its remediation efforts and has identified the
         termination process currently conducted at Coast Guard’s
         Personnel and Pay Center (PPC) as a potential solution. At
         PPC, a report is run within Direct Access whenever an

                                                                           17

                  Information Technology Management Letter for the United States Coast Guard Component
                                          of the FY 2009 DHS Integrated Audit
                                                                                                                                      Appendix B

                                                  Department of Homeland Security
 

                                                     United States Coast Guard
 

                                              Information Technology Management Letter
                                                         September 30, 2009

                                                                                                                              New     Repeat   Severity
NFR #                             Condition                                             Recommendation
                                                                                                                              Issue    Issue    Rating
         individual separates, retires, or transfers which
         automatically removes system permissions. However, this
         process currently excludes contractors and civilians whose
         information is not currently in Direct Access.

CG-IT­   Not all WINS change requests were appropriately reviewed        �   Consistently enforce the newly implemented                 X          1
09-34    and approved by management prior to development and/or              PRP process to ensure that all change requests
         prior to implementation. In addition, 1 of the 25 WINS              are properly reviewed and approved prior to
         changes selected was identified as having a financial impact        development and again prior to
         consideration to the Coast Guard Financial Statements and,          implementation.
         as such, the appropriate Financial Representative approval
         was not obtained prior to implementation. We further noted      �   Periodically verify FINCEN compliance with
         that the criterion set forth in the Coast Guard Finance             its PRP and related approval and CM
         Center Financial Statement Impact Consideration Memo                processes.
         does not provide sufficient detail to assist in making a
         determination regarding the financial impact of a proposed
                                                                         �   Formally document detailed decision criteria
         change.
                                                                             to be used when determining if a change has a
                                                                             financial impact.


CG-IT­   During our FY 2009 follow up, we determined that Coast          �   Perform the initial background investigations              X          2
09-40    Guard actively monitors all civilians to verify whether they        for civilian employees in accordance with the
         have a valid background investigation on record. We                 DHS directives over position sensitivity
         received documentation from Coast Guard that identified             designations; and
         94 individuals with an outstanding investigation. This
         number has been reduced significantly from the                  �   Conduct civilian background re-investigations
         approximately 350 individuals identified in FY 2008.                as required by DHS directives, to ensure that
                                                                             each civilian employee has a favorably
         Coast Guard continues vetting individuals based on the              adjudicated, valid, and required background
         Office of Personnel Management (OPM) requirements                   investigation.


                                                                        18

                 Information Technology Management Letter for the United States Coast Guard Component
                                         of the FY 2009 DHS Integrated Audit
                                                                                                                                  Appendix B

                                                  Department of Homeland Security
 

                                                     United States Coast Guard
 

                                              Information Technology Management Letter
                                                         September 30, 2009

                                                                                                                          New     Repeat   Severity
NFR #                             Condition                                             Recommendation
                                                                                                                          Issue    Issue    Rating
         which require a National Agency Check and Inquiries
         (NACI) investigation for those position designations with
         the lowest risk. A NACI consists of written inquiries and
         searches of records covering specific areas of a person's
         background during the past five years including current and
         past employers, schools attended, references, and local law
         enforcement authorities.

         However, all DHS government positions that use, develop,
         operate, or maintain IT systems are considered at least
         moderate risk (not low), and per DHS, 4300A requirements,
         a Minimum Background Investigation (MBI) is the
         minimum standard of investigation. The MBI consists of
         the NACI as well as a credit record search, face-to-face
         personal interview between the investigator and the subject,
         and telephone inquiries to selected employers. Therefore,
         Coast Guard is not in compliance with these DHS
         requirements.

         In addition, Coast Guard does not complete background re­
         investigations due to the lack of the requirement under
         current OPM guidance for low risk positions even though
         re-investigations must be completed every 10 years for
         moderate risk positions per DHS Management Directive
         (MD) 11050.2, Personnel Security and Suitability Program.

CG-IT­   As a result of our audit test work and supported by all the     �   Continue to implement and improve upon                 X          3
09-42    IT NFRs issued during the current year, we determined               the monitoring of compliance with DHS,
         that Coast Guard is non-compliant with the Federal                  Coast Guard, and Federal security policies
         Financial Management Improvement Act (FFMIA) and                    and procedures in the areas of the script
         we believe that Coast Guard has not fully addressed the             configuration management controls.

                                                                        19

                 Information Technology Management Letter for the United States Coast Guard Component
                                         of the FY 2009 DHS Integrated Audit
                                                                                                                                       Appendix B

                                                 Department of Homeland Security
 

                                                    United States Coast Guard
 

                                             Information Technology Management Letter
                                                        September 30, 2009

                                                                                                                               New     Repeat   Severity
NFR #                            Condition                                               Recommendation
                                                                                                                               Issue    Issue    Rating
         recommendations in NFR CG-IT-08-42.
                                                                         �   Develop and implement corrective action
                                                                             plans to address and remediate the NFRs
                                                                             issued during the FY 2009 audit. These
                                                                             corrective action plans should be developed
                                                                             from the perspective of the identified root
                                                                             cause of the weakness both within the
                                                                             individual NFR and across related NFRs.
                                                                             The IT NFRs should not be assessed as
                                                                             individual issues to fix, but instead, should
                                                                             be assessed collectively based upon the
                                                                             control area where the weakness was
                                                                             identified. This approach enables corrective
                                                                             action that is more holistic in nature, thereby
                                                                             leading to a more efficient and effective
                                                                             processes of addressing/fixing the controls
                                                                             that are not operating effectively.

CG-IT­   Coast Guard procedures do not include a review of all UMS       Modify procedures to require an annual reviewXof                           2
09-43    user accounts, as required by DHS 4300A Sensitive               one hundred percent (100%) of UMS user
         Systems Handbook and required by the DHS-CIO. A full            accounts and their associated privileges that are
         100% review of accounts that exceed ‘read-only’ access          greater than read-only. The updated procedures
         would ensure that all terminated individuals no longer have     should include steps to verify that all terminated
         active accounts, that inactive accounts are locked, and that    individuals no longer have active accounts, that
         privileges associated with all UMS users are authorized and     inactive accounts are locked and that privileges
         necessary.                                                      associated with each individuals are still
                                                                         authorized and necessary.
CG-IT­   Access was not authorized for two of the 15 individuals we      Include the badge software database during the         X                   1
09-45    tested who possessed badges allowing FINCEN data center         data center access review process to ensure that no
         access.                                                         unauthorized individuals have badges that would
                                                                         allow them access to the FINCEN data center.

                                                                        20

                 Information Technology Management Letter for the United States Coast Guard Component
                                         of the FY 2009 DHS Integrated Audit
                                                                                                                                       Appendix B

                                                  Department of Homeland Security
 

                                                     United States Coast Guard
 

                                              Information Technology Management Letter
                                                         September 30, 2009

                                                                                                                               New     Repeat   Severity
NFR #                             Condition                                              Recommendation
                                                                                                                               Issue    Issue    Rating
CG-IT­   During our testing, we determined that all previous year        Implement the corrective actions for the                X                 1
09-46    conditions listed in NFRs CG-IT-08-36 and CG-IT-08-37           recommendations listed within the NFR.
         were properly remediated by Coast Guard. As part of this
         year’s testing, we identified nine security configuration
         management weaknesses (i.e., missing security patches
         and/or incorrect configuration settings) on hosts supporting
         CAS and FPD.

CG-IT­   Direct Access passwords do not require a special character,     Through our test work, we determined that the          X                   1
09-47    which is a requirement set forth within DHS 4300A               control weakness was remediated prior to the
         Sensitive Systems Policy Directive.                             fiscal year-end; therefore, no recommendation is
                                                                         required for this NFR.
CG-IT­   Global Pay accounts are configured to expire after five (5)     Through our test work, we determined that the          X                   1
09-48    invalid login attempts, rather than three (3), which is a       control weaknesses were remediated prior to the
         requirement set forth within DHS 4300A Sensitive Systems        fiscal year-end, therefore, no recommendation is
         Policy.                                                         required for this NFR.

CG-IT­   The quarterly JUMPS audit log review addresses unusual          Review audit logs containing unusual activity and      X                   1
09-49    activity or unexplained access attempts which DHS 4300A         unexplained access attempts on an at least monthly
         Sensitive Systems Policy Directive requires to be done on a     basis to meet the requirements set forth in DHS
         monthly basis.                                                  4300A, perform the necessary follow up on any
                                                                         incidents identified and maintain sufficient
                                                                         evidence of the audit log reviews, and include
                                                                         copies of audit logs in hard copy or electronic
                                                                         form and evidence that the review of the audit logs
                                                                         was conducted.
CG-IT­   Not all Direct Access failed logon attempts are logged or       � Identify the Direct Access application               X                   1
09-50    reviewed; and account management audit logs for the                 security-oriented audit logs that should be
         Direct Access application are not reviewed on a monthly             reviewed and then have the application system
         basis, which is a requirement set forth within the DHS              administrators review those Direct Access
                                                                             application security logs on at least a monthly

                                                                        21

                 Information Technology Management Letter for the United States Coast Guard Component
                                         of the FY 2009 DHS Integrated Audit
                                                                                                                                       Appendix B

                                                   Department of Homeland Security
 

                                                      United States Coast Guard
 

                                               Information Technology Management Letter
                                                          September 30, 2009

                                                                                                                               New     Repeat   Severity
NFR #                             Condition                                             Recommendation
                                                                                                                               Issue    Issue    Rating
         Sensitive Systems Policy Directive.                                basis, in accordance with DHS Policy.

                                                                        �   Additionally, we recommend that the Coast
                                                                            Guard upgrade to a more current version of
                                                                            PeopleSoft and Oracle so that it uses a vendor
                                                                            supported product with more robust security
                                                                            controls and so that accountability may be
                                                                            established to document changes to security
                                                                            settings and user profiles.
CG-IT­   Only the last modification to the user account is              Review role change logs on at least a monthly           X                   1
09-51    documented by the COTS PeopleSoft application software,        basis, in compliance with DHS Policy.
         making it difficult to establish accountability for role
         changes within the Global Pay application.

         Additionally, role changes for the Global Pay Application
         are not reviewed on a monthly basis, which is a requirement
         set forth within DHS Policy.

CG-IT­   100% of Direct Access user accounts with greater than          Modify procedures to require an annual review of        X                   2
09-52    read-only access are not reviewed annually to verify that      one hundred percent (100%) of Direct Access user
         access remains appropriate, per the DHS 4300A Sensitive        accounts and their associated privileges that are
         Systems Handbook and required by the DHS-CIO.                  greater than read-only. The updated procedures
                                                                        should include steps to verify that all terminated
                                                                        individuals no longer have active accounts, that
                                                                        inactive accounts are locked and that privileges
                                                                        associated with each individual are still authorized
                                                                        and necessary.
CG-IT­   During our after hours physical testing, we identified 11      � Review its policies and procedures regarding          X                   1
09-53    passwords, 2 unsecured laptops, 2 credit cards, and 4              Protection of Sensitive Information and update
         Common Access Cards (CAC).                                         where required in order to address DHS and
                                                                            other Federal requirements, with emphasis

                                                                       22

                 Information Technology Management Letter for the United States Coast Guard Component
                                         of the FY 2009 DHS Integrated Audit
                                                                                                                               Appendix B

                                                Department of Homeland Security
 

                                                   United States Coast Guard
 

                                            Information Technology Management Letter
                                                       September 30, 2009

                                                                                                                       New     Repeat   Severity
NFR #                           Condition                                          Recommendation
                                                                                                                       Issue    Issue    Rating
        During our social engineering testing, we were provided        being placed on the potential impacts of not
        with one password.                                             consistently and adequately protecting this
                                                                       sensitive information.
                                                                   �   Review, and update as required, its security
                                                                       awareness/training content to address the
                                                                       updated Protection of Sensitive Information
                                                                       policies and procedures.
                                                                   �   Validate the effectiveness of the updated
                                                                       policies and procedures and associated
                                                                       training through mechanisms such as
                                                                       scheduled and unscheduled desk/floor
                                                                       reviews, awareness training testing, etc. and
                                                                       take appropriate corrective action to address
                                                                       any issued identified during this validation.




                                                                  23

                Information Technology Management Letter for the United States Coast Guard Component
                                        of the FY 2009 DHS Integrated Audit
                                                                               Appendix C

                           Department of Homeland Security
 

                              United States Coast Guard
 

                       Information Technology Management Letter
                                  September 30, 2009




                                    Appendix C 


Status of Prior Year Notices of Findings and Recommendations and 

                          Comparison to 

Current Year Notices of Findings and Recommendations at Coast 

                            Guard
 





                                           24

  Information Technology Management Letter for the United States Coast Guard Component
                          of the FY 2009 DHS Integrated Audit
                                                                                                        Appendix C

                                   Department of Homeland Security
 

                                      United States Coast Guard
 

                               Information Technology Management Letter
                                          September 30, 2009

                                                                                                     Disposition
Coast Guard NFR #                                Description                                   Closed       Repeat
 Component
FINCEN     08-01      The Coast Guard Finance Center (FINCEN) Continuity of Operations           X
                      Plan (COOP) has not been updated to reflect the results of testing the
                      COOP, and the Business Continuity Plans for each division have not
                      been finalized.

FINCEN      08-06     During the first half of the fiscal year, the contract with the Core       X
                      Accounting System (CAS) and Financial Procurement Desktop
                      (FPD) software vendor was still in place, and no corrective action
                      had taken place related to the prior year recommendation. Therefore,
                      the risk exists that the condition was present for the majority of the
                      fiscal year (October 1, 2007 through April 1, 2008). However, due to
                      the Coast Guard decision to terminate the contract with their software
                      vendor and the Coast Guard Headquarters decision to suspend all
                      Software Problem Reports (SPRs) and Software Change Requests
                      (SCRs), the condition did not exist beyond the date of these 2 events.

PPC         08-07     We determined that Coast Guard’s Pay and Personnel Center (PPC)            X
                      has not implemented the following password requirements:
                       � Passwords shall contain special characters
                       � Passwords shall not contain any dictionary word
                       � Passwords shall not contain any proper noun or the name of any
                         person, pet, child, or fictional character
                       � Passwords shall not contain any employee serial number, Social
                         Security number, birth date, phone number, or any information
                         that could be readily guessed about the creator of the password
                       � Passwords shall not contain any simple pattern of letters or
                         numbers, such as “qwerty” or “xyz123”
                       � Passwords shall not be any word, noun, or name spelled
                         backwards or appended with a single digit or with a two-digit
                         “year” string, such as 98xyz123
                       � Passwords shall not be the same as the User ID

                      While compensating controls were implemented to reduce the risk of
                      unauthorized access, they unto themselves do not remove the
                      potential risk from occurring.

CG HQ       08-10     Coast Guard Headquarters has developed but not yet implemented                        09-10
                      policies and procedures to require that a favorably adjudicated
                      background investigation be completed for all contractor personnel.

CG HQ       08-14     Coast Guard headquarters has not finalized the Role-Based Training                    09-14
                      for Coast Guard Information Assurance Professionals Commandant
                      Instruction, which will require all Coast Guard members, employees,

                                                        25

        Information Technology Management Letter for the United States Coast Guard Component
                                of the FY 2009 DHS Integrated Audit
                                                                                                        Appendix C

                                 Department of Homeland Security
 

                                    United States Coast Guard
 

                             Information Technology Management Letter
                                        September 30, 2009

                                                                                                     Disposition
Coast Guard NFR #                               Description                                    Closed       Repeat
Component
                    and contractors with significant IT security responsibilities to receive
                    initial specialized training and annual refresher training thereafter.
                    The online Training Management Tool, which will track compliance,
                    will not be implemented until the Role-Based Training is
                    implemented.

FINCEN    08-17     Although FINCEN has made significant progress in remediation, we             X
                    were unable to verify that FINCEN is consistently remediating the
                    vulnerabilities identified by the AppDetective scans in order to make
                    it an effective mitigating control for the Checkfree application.

OSC       08-23     Policies and procedures have not been developed and implemented                         09-23
                    for the manual periodic review of SAM audit logs. As a result, SAM
                    audit logs are not periodically reviewed.

FINCEN    08-25     We determined the following weaknesses associated with the                              09-25
                    Workflow Imaging Network System (WINS) change controls:

                     � Procedures have been created and implemented for the quarterly
                      review of developer and analyst roles. However, the procedures
                      do not include the review of all other WINS user accounts to
                      ensure that all terminated individuals no longer have active
                      accounts, that inactive accounts are locked, and that privileges
                      associated with each individual are still authorized and necessary.
                    � 529 users have unlocked WINS database accounts with access to
                      the WINS_USER_R role. Therefore, the number of users with the
                      WINS_USER_R role has increased by 141 users from the 388
                      users noted during FY 2007. Additionally, a mapping of SQL
                      flow roles within the WINS application to the tables that can be
                      updated within the WINS database has not been created.
                      Therefore, we are unable to perform an analysis of the SQL flow
                      roles and the associated tables that are affected to determine
                      whether access is appropriately restricted.
                    � The password configurations for the PRODUSER and
                      SECURE_LOGON profiles will not be updated to be in
                      compliance with DHS guidance until after the 10G Release 2
                      (10gR2) Oracle database upgrade. Since no improvements have
                      been made in regards to the WINS password configuration, we
                      determined that the password configurations continue to not meet
                      the following DHS requirement of having a user password contain
                      at least one special character.

OSC       08-27     We noted that Coast Guard was unable to provide sufficient evidence          X
                    of the following:

                                                        26

      Information Technology Management Letter for the United States Coast Guard Component
                              of the FY 2009 DHS Integrated Audit
                                                                                                        Appendix C

                                   Department of Homeland Security
 

                                      United States Coast Guard
 

                               Information Technology Management Letter
                                          September 30, 2009

                                                                                                   Disposition
Coast Guard NFR #                                 Description                                  Closed     Repeat
Component
                      � SAM access request forms are documented and approved;
                      � SAM user accounts are revalidated annually; and
                      � SAM access is revoked in a timely manner for employees or
                         contractors that have left Coast Guard or are reassigned to other
                         duties.

FINCEN      08-31     Coast Guard’s controls over the scripting process remain ineffective.                09-31
                      Weaknesses were noted in controls over script implementation,
                      approvals and testing, as well as active script modification. In
                      addition, Coast Guard has not maintained or developed a population
                      of scripts run since the inception of CAS in 2003 nor has it performed
                      a historical analysis of script impact on the cumulative balances in
                      permanent accounts of the financial statements. Specifically:
                      � Coast Guard lacks a formal process to distinguish between the
                         module lead approvers for script approval requests;
                      � The Procedures for Data Scripts do not specifically state the
                         testing and documentation requirements for blanket approval
                         scripts and this policy remains in draft form;
                      � Coast Guard does not monitor scripts run in the database through
                         audit logging and has not developed a technical solution to
                         monitor who accesses the database through SQL Navigator to run
                         scripts or review what scripts are run;
                      � The Script Tracking System does not consistently include all
                         testing, approval, and implementation documentation for all
                         scripts; and,
                      � Coast Guard has not completed PRP documentation for all scripts
                         executed since their implementation.
CG HQ       08-32     Although Coast Guard Headquarters has mandated the use of                            09-32
                      Contractor Verification System (CVS) to maintain and track
                      contracted personnel data, procedures surrounding this process have
                      not been formally documented. As a result, we were unable to
                      determine the effectiveness of the controls in place for contractor
                      tracking.

CG HQ       08-33     Coast Guard does not consistently notify system owners that                          09-33
                      individuals are terminating from the Coast Guard so that system
                      accounts can be updated timely.

FINCEN      08-34     All WINS SCRs are not being appropriately reviewed and approved                      09-34
                      by management prior to development/deployment. In addition,
                      WINS developers and testers are not updating information in the


                                                         27

        Information Technology Management Letter for the United States Coast Guard Component
                                of the FY 2009 DHS Integrated Audit
                                                                                                         Appendix C

                                   Department of Homeland Security
 

                                      United States Coast Guard
 

                               Information Technology Management Letter
                                          September 30, 2009

                                                                                                      Disposition
Coast Guard NFR #                                 Description                                   Closed       Repeat
Component
                      PVCS tool in a timely manner.

FINCEN      08-35     We noted that control weaknesses still exist within the design of           X
                      FINCEN’s Configuration Management policies and procedures for
                      CAS and FPD, as well as the operating effectiveness of those
                      controls. Our test work over the design of the change controls
                      covered both periods of the change control environment; however,
                      our testing of operating effectiveness covered only the period of start
                      of the fiscal year through March 2008, since no changes were made
                      to CAS and FPD from April through the remainder of the fiscal year.

FINCEN      08-36     Configuration management weaknesses continue to exist on hosts              X
                      supporting the CAS, FPD and WINS applications and the underlying
                      General Support Systems (GSS).

                      Note: Due to the nature of this testing, see the tables in the NFR for
                      the specific conditions.

FINCEN      08-37     Security patch management weaknesses continue to exist on hosts             X
                      supporting the CAS, FPD and WINS applications and GSS.

                      Note: Due to the nature of this testing, see the tables in the NFR for
                      the specific conditions.

CG HQ       08-40     Although Coast Guard Headquarters is in the process of completing                      09-40
                      background investigations for all civilian employees, this has not
                      been completed. Additionally, Coast Guard has set its position
                      sensitivity designations to Low for the majority of its employees.
                      However, DHS requires position sensitivity designations no less than
                      Moderate which equates to a Minimum Background Investigation
                      (MBI). Therefore, we determined that the conditions noted in prior
                      year NFR CG-IT-07-40 have not been remediated.

FINCEN      08-41     FINCEN has not completed the risk assessment for the CAS Suite,             X
                      and the CAS System Security Plan (SSP) is still in draft form.

CG HQ       08-42     During prior financial statement audits dating back to FY 2003, we                     09-42
                      noted that implementation and oversight of the Coast Guard’s
                      information security policy and procedures was fragmented among
                      the organizations responsible for operating various
                      applications/systems. In FY 2008, significant improvements have
                      been made in some areas; however, improvements are still warranted
                      at the Coast Guard data centers/locations that operate and process key
                      Coast Guard financial information. Improvements are needed


                                                         28

        Information Technology Management Letter for the United States Coast Guard Component
                                of the FY 2009 DHS Integrated Audit
                                                                                                        Appendix C

                                 Department of Homeland Security
 

                                    United States Coast Guard
 

                             Information Technology Management Letter
                                        September 30, 2009

                                                                                                   Disposition
Coast Guard NFR #                               Description                                    Closed     Repeat
Component
                    especially in the areas of change control and to a lesser extent, access
                    to data and programs. These two key areas were the subject of
                    significant findings identified and recommendations that were made
                    during the audit.

                    As a result of our audit test work and supported by all the IT NFRs
                    issued during the current year, we determined that Coast Guard is
                    non-compliant with the Federal Financial Management Improvement
                    Act.

FINCEN    08-43     During our testwork over CAS and FPD access accounts, we noted                         09-43
                    that controls over user account authorizations and controls over user
                    account reviews were not operating effectively.




                                                       29

      Information Technology Management Letter for the United States Coast Guard Component
                              of the FY 2009 DHS Integrated Audit
                                                                                                                Appendix D
                                Department of Homeland Security 

                                   United States Coast Guard 

                            Information Technology Management Letter
                                       September 30, 2009



                                                                             >I" '""""' ....... ~... ,,,.,,'"
                                                                             _'_'G-<
                                                                             _ _ DC""" ""


                                                                             ...
                                                                             _,,","'H"'"
                                                                                "......
                                                                             ,~""".,~"',.
                                                                                           ~-~          ...
                                                                              R£llll''''   <-~I
                                                                             Aoln of: Midmd. M>.!Siao
                                                                                           (202).'l-)6l7
     To:     Mr.r-...... D<fI..
             .'\ssG:Inl1"'f"'<"" G«><tol, hlfomuh"" T""""""g- A",,",
             U.S J:/q>uIIIl<L~ ofllou>clu       "




     L 1n "'f'O"IlO ••"o[<m>=(~), 'honl<    )O'~   l<J.- '"" DHS. otr"" oftb;; lD.,peclor GaHn!', (OlG)
     """""lll' in<'l""''''''l ,,,;..... ,,[<11< ~ h>l1JmI"Ii"" l'<dv1ok'l:)' (If) <=!rob ~
     _   the usoc ",=""..1"""",,"n~ ~t, rl' iefuu<n>c:turc 0l>Il "":,,,11 ~ progam.




     -"
     Th' l"'"--' <mn hi"",l ...'rIll dkr wOKti>-.: KlivitK:>, Iu:IpJ 1Ir L;sa; imj:<o-.'c ... n" >ecurily


     2. 1'11< OIG ido>ntifiod _ _ u... ilO.... ..--" ~n<linr;;o <hot "'l"i.., ~" :u:tioo., by tbc
     USCG, n.. U = """""" ,..llh th< boy" fll< the 00Ilditi0J<n..-..l fin<lin&s that ...-modo<u1><.LI""'-
     no <h<: FYO'l IT Not>x of ¥iD:Ii.nV ~ Jl<oJrnmm:latioJlS (NFfu) _ =nt:nri><d -..i<hin th< IT
     M.1m_          Loll". Spcmk d.t>ilo of _           t~ ~nd 110m 1'"',,,t;.1 imJ-D, will be
     dilomcd <ally ia 'i>< fYlOa,d;t d.",'ll d., pri,,, ,....... """",. Jl<'"-""'I.

     J. Th' llS(r, _~nW tho "':cd '" _oou,j.,' irnpm", Il' IeIUily "I"''''liom aDd 1m
     danoll>1mcd!hi> ,omldlml:nl bj; p"""'li\'oIy .... i"l\ ....,.. '" i,'¥U"" """""" ~ g lll.
     _I" pt'''''"''- l<l _l:i'~ _ ""fI<""""""",       '~rin&FVQ9, tt>c USCG procuw:l tbl'" "","'ieCl of
     on im\~<Ullr",""'" n:>ic",,' inlcmol oontr,,[' ...... tho \)'£6 sail" proc"~ 1                   ,ero:"
     ofthot review iAdic.oo .wfoci". COll'fl"ll'Olitlg <.."t",b """" i,. l~_'" ;""'i r;,. !<n>' .....
     ..."b=> '"<DBI lh' big» n<l: ""in! cItdn_~ ."ignrd.u;"g!h. """"" Qf (}.., -'it. U\.C0
     _      'y«"wi'" "'"  010>,......-.11 ~ti<J"" ODd i>"""tinui.. '" iruV"""~ ibaaijltinJ:
                  !,
     1"'.,.,]."-"''- pout Q[ Lhi> improvcrn<:l1 _.'os tIr dq>~lt of. JD<>fO mOO" ='l"
     ~-m'''''lool

     4. Du<irJi "'" """"" M ""'audit, tho 11'«:("; """,I",.... ~ .m(~ "hoot ""'lie .".))'1ClI ,,,"
     doUnninod "'" """l ' P ~ m<lh>cl(.) fur oddr.".;q iJenli['Od - . m . " , " , ba>ed ~POll




                                                          30
 


Information Technology Management Letter for the United States Coast Guard Component
                        of the FY 2009 DHS Integrated Audit
                                                                                                         Appendix D
                               Department of Homeland Security 

                                  United States Coast Guard 

                           Information Technology Management Letter
                                      September 30, 2009



     Somj: RESI'OI>SJ' TO 1NfORM-<\.TION THllNOL<XiY
     \lASAC,rMBH ~!'ORTtI\;~, S, CUJlSl'GUARD
     co."ll'OI\ENT OFTH.: HSCAI, Y~.o\K 2009 DHS
     N1T£;RATFD AUfllT


     """"'" c"PobiHt;"'..,.j ,cwuroos- Thi. ~roo= led dl< L'sce; '" ",,,,,tiO"  ..,,,,,.11molit
     """"""OBlationsrdlttd to kilo ri.~ ilnpoet i__ The L'SCG 00I,tinue< ttl i",?I<oon,.,wl
     """",,,0 oom:cm-c 0<1","" 10 -=    t>e l-..:lorl}idl; ""wli''''''':mol ~M'"gs ro mitil;o-t< _:mol
     imprnl'O ~I!. '1'1>o>c co=<tm: ..,.""'" ih,> r ..... or     ""'ion_
                                                                      MH_(l'OA&\l')l _
     _      PC<!, IIJOOlinn:d, md rc;ooR>l m n" IJH1> l'ru*~ AiPK Fl'SMA (T AF) fOOl.
     5. ""'" m.;,",ynflhc l,~Cl) 'J"lI<rn-<Jricnlcd rf 'lfK> weremiliplod "'~ __ i""'-mlla!
     ~!he ",,"il '"     -t.- .,ilJlio FYUl   Thc r<>nainina low KIll mod","< risk <nI<rpi1o-wi<k I
     _ Y 1"\' grnm IT '<I'll> ""IWn> "",h;-)'CY _         l>Cc<:,wratq ooordiuoOOo bo:twc"" U SC l j
     ....I nH~ Hc"",-""" _ "",1 ~l ""lub:c _              """0"''''' lbOOll<t.oo .1aII) ...... li,

     6. The mO!.l>al1DDI ond <on~'o 01'\l«IO<II of th. 1>01 """ }~"" "'" ioq>:ov«! _a1
     Jnfi>nnori"" TOdIIOoIo~ OOtllroll. l'he U,CG look> 1io<..-.:trd 10 ... 0<1:;"8 _     I!l< DHS OlU
     <lmiq toc FY:O <Old;t. whot< ... ",.ici""",     "",lim,,"""  or ''''' "'...o<ti.e >o:<i<K, ~
     oh:lrou:h ~ "'"iilll. r=WlL

                                                     •
     Copy:    CG_6
              CG.(,j
              CG_S
              CG_M




                                                     ,
                                                         31
 


Information Technology Management Letter for the United States Coast Guard Component
                        of the FY 2009 DHS Integrated Audit
                                                                             Appendix E
                         Department of Homeland Security
 

                            United States Coast Guard
 

                     Information Technology Management Letter
                                September 30, 2009

               Report Distribution

               Department of Homeland Security

               Secretary
               Deputy Secretary
               General Counsel
               Chief of Staff
               Deputy Chief of Staff
               Executive Secretariat
               Under Secretary, Management
               Commandant, USCG
               DHS Chief Information Officer
               DHS Chief Financial Officer
               Chief Financial Officer, USCG
               Chief Information Officer, USCG
               Chief Information Security Officer
               Assistant Secretary for Policy
               Assistant Secretary for Public Affairs
               Assistant Secretary for Office of Legislative Affairs
               DHS GAO OIG Audit Liaison
               Chief Information Officer, Audit Liaison
               USCG Audit Liaison

               Office of Management and Budget

               Chief, Homeland Security Branch
               DHS OIG Budget Examiner

               Congress

               Congressional Oversight and Appropriations Committees as Appropriate




                                          32
 


Information Technology Management Letter for the United States Coast Guard Component
                        of the FY 2009 DHS Integrated Audit
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
